APPENDIX TABLE OF CONTENTS
OPINIONS, ORDER, AND JUDGMENTS
Order of the Supreme Judicial Court for the
Commonwealth of Massachusetts
(August 5, 2020) ................................................. 1a
Memorandum and Order Pursuant to Rule 1:28
(June 11, 2020) ................................................... 2a
Conviction Docket
(December 16, 2014) ......................................... 11a
OTHER DOCUMENTS
Testimony of Expert Witness Lewis Gordon
(May 10, 2016) .................................................. 17a
Indictment Assault by Means of a Dangerous
Weapon General Laws Chapter 265, Section
15B(b) (December 16, 2014) ............................. 34a

App.1a
ORDER OF THE SUPREME JUDICIAL
COURT FOR THE COMMONWEALTH
OF MASSACHUSETTS
(AUGUST 5, 2020)
SUPREME JUDICIAL COURT FOR THE
COMMONWEALTH OF MASSACHUSETTS
RE: Docket No. FAR-27615
________________________
COMMONWEALTH
v.
EDWARD B. FLEURY
________________________
Hampshire Superior Court No. 1480CR00193
A.C. No. 2018-P-0303
NOTICE OF DENIAL OF APPLICATION FOR
FURTHER APPELLATE REVIEW
Please take note that on August 5, 2020, the application for further appellate review was denied
Francis V. Kenneally
Clerk
Dated: August 5, 2020
To: Thomas H. Townsend, A.D.A.
Thomas Robinson, Esquire

App.2a
MEMORANDUM AND ORDER
PURSUANT TO RULE 1:28
(JUNE 11, 2020)
COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
No. 18-P-303
________________________
COMMONWEALTH
v.
EDWARD FLEURY
The defendant appeals from his convictions by a
Superior Court jury of twelve counts of improperly
storing a large capacity weapon, in violation of G. L.
c. 140, § 131L (a). We affirm.
Background
On September 11, 2014, members of the State
Police and local police departments located within
Hampshire County executed a search warrant at the
defendant’s residence in Pelham. The warrant authorized the seizure of one handgun; however, the police
found 240 firearms throughout the home during the
course of the search. On December 16, 2014, the
defendant was indicted by a grand jury and charged
with multiple firearm offenses, including one count
of improper storage of a handgun, in violation of
§ 131L (a), and twenty-one counts of improper storage
of a large capacity weapon, also in violation of § 131L (a)
(2014 indictment). In a separate indictment returned

App.3a
on September 15, 2015, the defendant was charged
with five additional counts of improperly storing a
large capacity weapon based on weapons retrieved
from his attic, in violation of G. L. c. 140, §§ 131L (a)
and (b) (2015 indictment).1
Before trial on either indictment, the defendant
filed a motion to dismiss the improper firearm storage
charges in both the 2014 and 2015 indictments on the
ground that the definition of “large capacity weapon”
set forth at G. L. c. 140, § 121, is unduly vague, rendering § 131L unconstitutional on its face and as applied
to him. A Superior Court judge held an evidentiary
hearing on the motion to dismiss and denied the motion
in a well-reasoned written decision. The judge concluded that the defendant’s facial challenge to § 131L
“must fail” for lack of standing, because the statute
does not implicate rights under the First or Second
Amendments to the United States Constitution. He
further concluded that § 131L was not unconstitutional
as applied to the defendant because the definition of
“large capacity weapon” is not unduly vague.
The assault by means of a dangerous weapon
(handgun) charge in the 2014 indictment, and the
five improper firearm storage charges alleged in the
2015 indictment, proceeded to trial first before a jury
and a different judge. The defenses at trial were that
(1) he was entrapped by the police to leave his home
without securing his firearms when they called him
to the police station so that he would not be there
while they executed the search warrant, and (2) the
1 Although the indictments state on a preprinted form that they
were returned “[o]n this 15th day of September, 2014,” the docket
sheet shows that they were returned on that date in 2015.

App.4a
Commonwealth’s evidence regarding the five firearms
retrieved from the attic was insufficient to establish
that the firearms were improperly stored, because
the officer who located and retrieved those firearms
did not testify, and thus, the Commonwealth offered
no evidence as to the manner in which those firearms
were stored. The trial resulted in acquittals on all of
the charges. Because he had been acquitted of improperly storing the five firearms removed from his
attic that were the subject of the 2015 indictment, the
defendant moved to dismiss the twenty-two remaining
counts of the 2014 indictment, alleging improper
storage of different firearms, on the grounds of double
jeopardy and collateral estoppel. The same judge who
had ruled on the motion to dismiss the indictments
succinctly denied that motion in a margin endorsement
that was limited to the issue of collateral estoppel.2
He then presided over the defendant’s second trial,
which addressed twenty-two counts of improper storage
of a firearm alleged in the 2014 indictment, twentyone of which identified a large capacity firearm.
The jury convicted the defendant of twelve counts
of improperly storing a large capacity weapon
and acquitted him of the remaining ten counts.

2 The judge wrote: “After hearing, during which the parties told
me what the evidence was in the previous case and what the
Commonwealth expects the evidence to be in the instant case, I
conclude that the issue of whether the guns in this case were
improperly stored or secured, or whether these guns were under
the control of the defendant or another authorized user at the time
the police entered the premises, was not necessarily decided in
the previous case. Moreover, there is no way of knowing whether
the jury in the previous case based their verdict on the doctrine
of entrapment, i.e., whether that issue was necessarily decided.”

App.5a
We need not recite the facts underlying the convictions because they are not relevant to the defendant’s claims on appeal: that (1) § 131L is unconstitutional on its face,3 and (2) his second trial for improperly storing firearms violated principles of double
jeopardy because he was previously tried for and
acquitted of five counts of improperly storing a large
capacity weapon. The defendant preserved these claims
by filing motions to dismiss.4 See Commonwealth v.
Carlino, 449 Mass. 71, 76 n.13 (2007); Commonwealth
v. Peace Chou, 433 Mass. 229, 238 (2001). Both claims
present questions of law that we review de novo. See
Commonwealth v. Rodriguez, 476 Mass. 367, 369 (2017)
(double jeopardy); Commonwealth v. McGhee, 472
Mass. 405, 412 (2015) (facial challenge).
Statutory framework
Section 131L “is part of an over-all scheme of
gun control legislation designed to prevent the temptation and the ability to use firearms to inflict harm”
(citation and quotation omitted). Commonwealth v.
Patterson, 79 Mass. App. Ct. 316, 319 (2011). With the
exception of antique firearms that are not at issue in
this case, “[i]t shall be unlawful to store or keep any
firearm” in this Commonwealth, “including, but not
limited to, large capacity weapons, in any place
unless such weapon is secured in a locked container
3 The defendant has abandoned his vague as-applied challenge.
4 We reject the Commonwealth’s contention that the double
jeopardy claim is not preserved because the defendant focused
on, and the motion judge only analyzed, the doctrine of collateral
estoppel. That doctrine “operates in criminal proceedings as
part of the guarantee against double jeopardy.” Commonwealth v.
Woods, 414 Mass. 343, 353 (1993).

App.6a
or equipped with a tamper-resistant mechanical lock
or other safety device, properly engaged so as to
render such weapon inoperable by any person other
than the owner or other lawfully unauthorized user.”
G. L. c. 140, § 131L (a). A “large capacity weapon”
includes any semiautomatic weapon equipped with,
capable of accepting, or readily modifiable to accept a
“large capacity feeding device.”5 G. L. c. 140, § 121.
“Large capacity feeding device” is defined as a magazine that holds more than ten rounds of ammunition.
Id. “For purposes of this section, such weapon shall
not be deemed stored or kept if carried by or under
the control of the owner or other lawfully authorized
user.” G. L. c. 140, § 131L (a).
To effectuate its purpose as a public welfare
statute, that is, one “criminaliz[ing] conduct that has
not necessarily caused harm but is ‘potentially harmful
or injurious,’” Commonwealth v. Kelly, 484 Mass. 53,
58 (2020), quoting Staples v. United States, 511 U.S.
600, 607 (1994), § 131L authorizes punishment by fine,
imprisonment, or both, in amounts that vary based
on the level of risk presented by the violation. Minimum
and maximum fine amounts and terms of imprisonment are set forth in the statute, and increase “in the
case of a large capacity weapon” that is improperly
stored. G. L. c. 140, § 131L (b). Penalties increase even
more “in the case of a rifle or shotgun that is not a
large capacity weapon” but was kept somewhere a
minor “may have access without committing an
unforeseeable trespass.” G. L. c. 140, § 131L (c). The
5 The terms “capable of accepting a large capacity feeding device”
and “readily modifiable to accept a large capacity feeding device”
are further defined in regulations promulgated by the Secretary
of Public Safety. See 501 Code Mass. Regs. § 7.02 (2007).

App.7a
harshest penalties are imposed “in the case of a rifle
or shotgun that is a large capacity weapon” and was
kept somewhere a minor may have access. G. L. c.
140, § 131L (d). A violation of § 131L is evidence of
wanton or reckless conduct in certain proceedings
where a minor has “acquired access to a weapon”
without authorization. G. L. c. 140, § 131L (e). “These
subsections highlight the Legislature’s specific interest
in protecting children.” Commonwealth v. Reyes, 464
Mass. 245, 250 n.5 (2013). They also demonstrate the
“important role” the storage statute plays in the regulatory scheme. Id. at 250.
Discussion
1. Vagueness
The Supreme Judicial Court has held that § 131L
falls outside the scope of the right to bear arms that
is protected by the Second Amendment to the United
States Constitution. See Chief of Police of Worcester
v. Holden, 470 Mass. 845, 853 (2015); Commonwealth
v. McGowan, 464 Mass. 232, 244 (2013). Thus, as the
judge who denied the defendant’s motion to dismiss
the indictments correctly held, “the defendant cannot
seek relief on the basis that the statute is unconstitutional on its face.” Commonwealth v. Golding, 86 Mass.
App. Ct. 55, 59 (2014). See Commonwealth v. Jasmin,
396 Mass. 653, 655 (1986), and cases cited.6
6 In any event, we agree with the judge’s conclusion that this
claim would not succeed on its merits because the statute is not
vague. All semiautomatic firearm owners in this Commonwealth
“can take simple steps to ensure compliance with” § 131L in the
event their weapon becomes a large capacity one without their
knowledge, Kelly, 484 Mass. at 61, by storing their firearm as
provided in the statute.

App.8a
2. Double jeopardy
We are not persuaded by the defendant’s claim
that his second trial, for improperly storing twentytwo other firearms, including twenty-one large capacity
ones, ran afoul of the prohibition on “multiple punishments for the same offense.” Mahoney v. Commonwealth, 415 Mass. 278, 283 (1993). Section 131L is not
ambiguous with respect to the proper unit of prosecution, as the defendant claims, because the words “any
firearm” clearly import the singular when they are
considered with the rest of the language in the statute
and the purpose of § 131L. See Commonwealth v.
Wassilie, 482 Mass. 562, 567 (2019) (we look to language and purpose of statute in order to determine
appropriate unit of prosecution). See also G. L. c. 4, § 6,
Fourth (“words importing the plural number may
include the singular”). “Any firearm” is modified in
the first and last sentences of subsection (a) by “such
weapon,” making it clear that “any firearm” not in
the control of an owner may not be stored in this
Commonwealth unless “such weapon” is secured to
prevent unauthorized access. That each firearm is
the subject of its own safe storage requirement is reinforced by the fact that the penalty for a violation
increases “in the case of . . . a large capacity . . .
firearm,” or “a rifle or shotgun,” to which a minor
may gain access (emphasis added). G. L. c. 140, § 131L
(d). Liability also may be imposed on a gun owner if a
minor acquires access to “a weapon” because it has
not been securely stored (emphasis added). G. L. c.
140, § 131L (e).
Section 131L therefore is unlike the Federal
statute at issue in United States v. Verrecchia, 196
F.3d 294 (1st Cir. 1999), which is the sole case upon

App.9a
which the defendant relies. The court in that case
held that a defendant can only be convicted once for
possessing multiple weapons at the same time in violation of 18 U.S.C. § 922(g)(1), because that statute
“focuses on the person, not the firearm.” Id. at 300.
The court’s conclusion in Verrecchia rested, in part,
on the fact that “[e]ach possession of a firearm by a
felon is of equal seriousness” under the statute. Id. at
301. By contrast, the seriousness of each violation of
§ 131L depends on the nature of the weapon and the
manner in which it was stored.
The defendant’s acquittal of improperly storing
the five large capacity Glock firearms retrieved from
the defendant’s attic and identified by serial number
in the 2015 indictment “resolved only one factual
issue.” Commonwealth v. Woods, 414 Mass. 343, 348
(1993). That issue was whether the defendant improperly stored those particular firearms. As a matter
of law, the defendant’s failure properly to store the
twenty-two firearms alleged in the 2014 indictment,
which we know are different firearms because they
are also identified by serial number, could not have
been a lesser included offense of any of those charges.
The failures for which the defendant was on trial the
second time were not “based on the same acts performed with the same [firearms]” that were at issue
in the first trial. Commonwealth v. Rabb, 431 Mass.
123, 128 (2000).
The prosecution was required to prove that the
defendant improperly stored “a separate set of [guns]
in [the] subsequent prosecution.” Therefore, “the defendant [wa]s not placed twice in jeopardy for the same
offense.” Woods, supra, citing Illinois v. Vitale, 447
U.S. 410, 416 (1980).

App.10a
Judgments affirmed.
By the Court
(Vuono, Lemire & McDonough, JJ.7)
/s/ Joseph F Stanton
Clerk
Entered: June 11, 2020.

7 The panelists are listed in order of seniority.

App.11a
CONVICTION DOCKET
(DECEMBER 16, 2014)
MASSACHUSETTS TRIAL COURT
________________________
COMMONWEALTH
v.
FLEURY, EDWARD
________________________
No. 1480CR00193
Case Type: Indictment
Case Status: Open
File Date: 12/16/2014
DCM Track: A- Standard
Initiating Action: ASSAULT W/DANGEROUS
WEAPON c265 § 15B(b)
Status Date: 12/16/2014
______________________________________
09/21/2017 Offense Disposition:
Charge #1 ASSAULT W/DANGEROUS WEAPON
c265 § 15B(b)
On: 10/28/2016
Judge: Hon. Mark D Mason
By: Jury Trial
NOT GUILTY VERDICT
Charge #2 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017

App.12a
Judge: Hon. Daniel Ford
By: Jury Trial
GUILTY VERDICT
Charge #3 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict
Charge #4 FIREARM, STORE IMPROP LARGE
CAPACITY c140 §131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By Jury Trial
Guilty Verdict
Charge #5 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge #6 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict
Charge #7 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict

App.13a
Charge #8 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge#9 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge #10 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017 Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge #11 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge #12 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge #13 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford

App.14a
By: Jury Trial
Not Guilty Verdict
Charge #14 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge #15 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict
Charge #16 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict
Charge#17 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict
Charge #18 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict

App.15a
Charge #19 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial Guilty Verdict
Charge #20 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict
Charge #21 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
Charge #22 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Guilty Verdict
Charge #23 FIREARM, STORE IMPROP LARGE
CAPACITY c140 § 131L(a)&(b)
On: 09/21/2017
Judge: Hon. Daniel Ford
By: Jury Trial
Not Guilty Verdict
09/21/2017
Event Result: Jury trial ends, Verdict slips
filed. Defendant released on Personal Recog-

App.16a
nizance, sentencing continued to 9/22/2017
@ 2 PM
The following event: Jury Trial scheduled
for 09/21/2017 09:00 AM has been resulted
as follows
Result: Held as Scheduled
09/21/2017 Verdict affirmed, verdict slip filed
Counts
2, 3, 4, 6, 7, 15, 16, 17, 18, 19, 20 & 22
GUILTY AS CHARGED
Counts
5, 8, 9, 10, 11, 12, 13, 14, 21 & 23
NOT GUILTY

App.17a
TESTIMONY OF EXPERT WITNESS
LEWIS GORDON
(MAY 10, 2016)
COMMONWEALTH OF MASSACHUSETTS
Hampshire, as Superior court Dept.
Dockets: 1480CR00193; 1580CR115
________________________
COMMONWEALTH OF MASSACHUSETTS
v.
EDWARD FLEURY
________________________
The Transcription of the Recorded Motion to Dismiss
and Motion to Sever Hearing Held Before Ford, J . In
the Hampshire County Superior Court, Courtroom
Number 2, 15 Gothic Street, Northampton,
Massachusetts on Tuesday, May 10, 2016.
DIRECT EXAMINATION BY MR. ROBINSON
[Counsel for Edward Fleury, Defendant]
MR. ROBINSON: Good afternoon.
THE WITNESS [Lewis Gordon, Expert Witness]:
Good afternoon.
Q.

Would you, please, state your name for the record
and spell your last name?

A.

Certainly. Lewis Gordon, G-O-R-D-O-N.

Q.

And how are you currently employed?

App.18a
A.

I own and operate Forensic Evidence, Incorporated,
which is a firearms examination laboratory.

Q.

And what do you do there?

A.

We examine firearms.
We look at projectiles and cartridge cases for
comparison work.
We do shooting-incident reconstruction.

Q.

And have you ever testified as an expert before—

A.

Yes.

Q.

—in Court?

A.

I have.

Q.

In what Court have you testified as an expert?

A.

Both in Hampden County Superior and District
Courts.

Q.

And do you have any specialized training or education in this area?

A.

Yes.

Q.

Would you describe that for the Court?

A.

Certainly. I have over thirty years experience
with firearms, which was supplemented with a
master’s degree in forensic science and, in addition,
completed a certificate program in gunsmithing.
I’m a certified firearms specialist, as well as
numerous armorous courses and workshops.

Q.

And what about you mentioned that you had a
degree in forensic science?

A.

Yes. That’s correct.

App.19a
Q.

Have you got any other schooling?

A.

Yes. I have a bachelor’s degree in law enforcement,
and a law degree, and a certificate in advanced
investigations.

Q.

And is there any other schooling besides that?

A.

Formalized, no.

Q.

And did you ever work in law enforcement?

A.

I did for brief periods of time, yes.
I was a patrol officer in a couple small towns.

Q.

And have you ever been involved in training law
enforcement?

A.

Yes. I currently train—I do firearms instruction
for the Hampden County Sheriff’s Department,
Law Enforcement Division.

Q.

And did you also attend law school?

A.

I did.

Q.

Did you complete law school?

A.

I did.

Q.

Is there any other area of your background, training and experience that I’ve neglected to question you about?

A.

I don’t believe so.

Q.

Okay. Now, are you familiar with the case that
is against Mr. Edward Fleury—

A.

Yes.

Q.

—in Court?

App.20a
And how is it that you came to be familiar with
that?
A.

You retained me to review various discovery in
the matter.

Q.

And have you had an opportunity to review the
indictments in this case?

A.

Yes.

Q.

Okay. And are you familiar with those counts in
the indictment hat charge improper storage of a
large-capacity firearm?

A.

Yes.

Q.

Okay. Now, it you can from memory, are there
specific statutes that are associated with improper
storage of a firearm?

A.

Yes.

Q.

And do you recall what those are?

A.

Specifically Section 131, I think, deals with aspects
of that.
But as far as the criminal statute related to it, no.
I’m more focused on the definition issues.

Q.

Okay. Now, are you familiar with Count Four of
the indictment?

A.

Of specifically 14-193?

Q.

That’s correct.

A.

Yes, I am.

Q.

Are you familiar with the firearm that is associated
with that count?

A.

Yes.

App.21a
Q.

And what firearm is that?

A.

It’s a Beretta Cx4 Storm.

Q.

Can you describe for the Court what type of gun
that is?

A.

It’s a semi-automatic firearm, and I believe in
forty-five caliber.

Q.

And when you say semi-automatic, what does
that mean?

A.

That means that there is no manual loading required after the initial shot. It is auto loading or
semi-automatic in that each pull of the trigger
will discharge a cartridge to the point where
there is no more cartridges available.

Q.

Now, how many rounds can that particular firearm
accept?

A.

The Beretta Cx4 is designed specifically for an
eight-round magazine capacity.

Q.

And now are you also familiar with Count Nine
of indictment 14-193?

A.

Count nine, that might actually be 15-115, count
nine.

Q.

I believe count nine is from indictment 14-193
and deals with the Beretta Model 96?

A.

I’m familiar with the Beretta 96, yes.

Q.

Okay. And what type of firearm is that?

A.

It is also a semi-automatic handgun.

Q.

Now, are you aware of the Approved Firearms
Roster?

A.

Yes.

App.22a
Q.

And are you also aware of the Large-Capacity
Weapons Roster?

A.

Yes.

Q.

Can you describe for the Court what those two
things are?

A.

They are documents which are created by the
Executive Office of Public Safety as required
under Chapter 140, Section 131 and three-quarters
to promulgate a list.
131 and three-quarters deals specifically with large
capacity firearms and requires the secretary of
public safety to generate a list of firearms—

Q.

Okay.

A.

—that are deemed large-capacity.

MR. ROBINSON: May I approach?
THE COURT: Yes.
Q.

I put before you two documents. do you recognize
those documents?

A.

Yes.

Q.

And what are they?

A.

This document here is a Large-Capacity Weapons
Roster labeled 02 dash 2015.
And the other document is the Approved Firearms
Roster labeled 2-2016.

Q.

And are those the rosters that you mentioned
that are referenced within the statutory scheme?

A.

Yes.

App.23a
MR. ROBINSON: Your Honor, at this time I would ask
that those two documents be marked as Defense
Exhibits 1 and 2.
MR. THOMAS: If I could just see them again, Your
Honor?
THE COURT: All right. Show them to Counsel, please.
MR. THOMAS: There’s no objection, Your Honor.
THE COURT: All right. Exhibits 1 and 2, please.
(Defendant’s Motion
Exhibits 1-2 offered and marked.)
Q.

Now, drawing your attention to what has been
marked as Exhibit Number One, the LargeCapacity Weapon Roster, does that roster make
reference to the Beretta model 96?

A.

It does not.

MR. ROBINSON: May I approach again, Your Honor?
THE COURT: Yes.
MR. ROBINSON: All right. I would move that those
two exhibits be moved into evidence for the Court.
I guess the—
I mean, I think the Court can take judicial notice
of them.
THE COURT: They have already been marked as
exhibits.
MR. ROBINSON: Thank you, Your Honor.
THE CLERK: Do you want these?
THE COURT: Yes. I’ll take a look at them.

App.24a
Q.

Now, are you also familiar with indictment number
15-115?

A.

Yes.

Q.

And are you familiar with counts one through
five in that indictment, as well?

A.

Generally.

Q.

Okay. And do you recall what he charges are in
that indictment? A. It’s also improper storage of
high-capacity or large-capacity firearms.

Q.

And do you recall what type of firearms those
that are involved in hat indictment?

A.

No. Those could possibly be lock firearms.

Q.

Now, getting back to the Cx4 storm that is the
subject matter of indictment 14-193 and count
four, you testified that that was designed to
accept less than eight rounds. Is that correct?

A.

Designed specifically for eight sounds.

Q.

Okay. So as designed it could not accept a
magazine of greater than right rounds?

A.

It was manufactured with only an eight-round
magazine capacity.
It is not the—
Generally, it is not the inherent mechanical design
of the semi-automatic firearm which determines
whether it’s capable of accepting a larger magazine
capacity. It is the magazine capacity itself and he
design of that magazine which, you know, would
make it capable of holding more than ten rounds.

App.25a
Q.

So is that true of other firearms that are sold;
that they are designed to have a limited number
of rounds in the magazine?

A.

Yes. In the Commonwealth of Massachusetts, you
are not—
And excluding law enforcement, of course.
—you are not permitted to purchase a firearm with
a magazine capacity of greater than ten.

Q.

So if a Massachusetts consumer were to purchase
a firearm, let’s say like the Beretta 96, to lawfully
purchase that weapon you would not—you would
not be purchasing it with a magazine that could
accept more than ten rounds.
Is that correct?

A.

That’s correct.

Q.

And generally speaking a store in Massachusetts
wouldn’t sell you a large-capacity weapon.
Is that correct?

A.

Not unless you are law enforcement, that’s correct.

Q.

Now, let’s take that Beretta 96 as an example.
If you lawfully purchased that and a ten-round
magazine, based upon your knowledge of the
statutory scheme would you then be in possession
of a large capacity?

A.

It’s uncertain.

Q.

And why is it uncertain?

A.

Because the statutes and the accompanying CMR’s
are in contradiction, as well as the Large-Capacity

App.26a
Weapons Roster, as well as the Approved Weapons
Roster, at times conflict.
The example that you have given, which is the
Beretta 96, is on the Approved Weapons Roster,
but is not on the Large-Capacity Weapons Roster,
but is capable and in other jurisdictions outside
of the Commonwealth can be supplied with a
fifteen-round magazine capacity.
So it is capable of accepting; however, is deemed
on the approved list here in the Commonwealth.
MR. THOMAS: Objection, Your Honor, as to the
answer and ask it be stricken. It’s essentially a
legal conclusion as to what the law said and
whether or not the law is contradictory.
It’s not for this so-called expert to tell us or you
what the law is.
And it’s not necessarily a very straightforward
answer either.
The fact that someone can have a fifteen-round
magazine with a semi-automatic weapon in
another state, they can certainly bring it into
Massachusetts so long as it’s properly licensed.
That really isn’t the issue here.
The issue is what the storage of that weapon is.
So, again, I would ask that the question and
answer be stricken.
MR. ROBINSON: Your Honor, I—
THE COURT: Well, so much of the answer as states
what the witness’ understanding of the law is
stricken. The balance may stand.

App.27a
MR. ROBINSON: Yes, Your Honor.
I would suggest that his testimony, based upon
his training and experience in both the law and
in firearms generally, is germane to the inquiry
here and whether or not the statute is vague on
its face.
THE COURT: All right. The order stands.
Q.

Yes, Your Honor.
You have made reference to the CMR. Are you
familiar with what section of the CMR is implicated in the statutory scheme that defines a
large-capacity weapon?

A.

Yes. On the large capacity roster it references 501
CMR 7.02 as further defining the definition of
capable of accepting or readily modifiable to accept
a large-capacity feeding device.

MR. ROBINSON: May I approach, Your Honor?
THE COURT: You may.
Q.

I’m putting before you another document. Do you
recognize that document?

A.

Yes.

Q.

And what is that?

A.

This is 501 CMR 7.00.

Q.

And is there a—you referenced a definition that
deals with large-capacity firearms or weapons.
And is there a definition that is written out there?

A.

There are two with respect to large-capacity
feeding devices, the first being capable of accepting
large-capacity feeding devices.

App.28a
The second relates to readily modifiable to accept
a large-capacity feeding device.
Q.

And is there reference in the CMR to a situation
where a firearm has with it a specific type of
magazine?

A.

Yes.

Q.

And could you describe that for the Court, please?

A.

Certainly. Under both sections, both the section
labeled capable of accepting a large capacity
feeding device, as well as the section readily
modifiable to accept, it indicates provided, however,
that—
Quoting now.
—provided, however, that said feeding device is
fully or partially inserted into the weapon or
attached hereto or is under the direct control of
a person who also has direct control of the weapon
capable of accepting said feeding device.

MR. ROBINSON: Your Honor, at this time I would ask
that this CMR be marked as defense Exhibit 3?
THE COURT: All right. Exhibit Number Three.
(Defendant’s Motion
Exhibit 3 offered and marked.)
Q.

Now, the definition of large-capacity weapon under
General Laws Chapter 140, Section 121, does
that say anything about there needing to be a
magazine with the gun at the time for it to be a
large-capacity weapon?

A.

No, it does not.

App.29a
Q.

Now, there are some weapons that when they are
manufactured they are only manufactured with
a magazine that accepts less than say ten rounds.
Is that correct?

A.

That’s correct.

Q.

Okay. Now, it is possible that a person purchasing
such a firearm could be in possession of that gun
and then later that manufacturer or another
manufacturer could create a magazine that would
be larger. Is that correct?

A.

Yes.

Q.

And are there other—besides say a manufacturer,
are there sometimes kits that are produced to
achieve the same result?

A.

Yes. You can sometimes modify he magazines.
Again, it is the capability, mechanical capability,
of the magazine which generally defines whether
it can accept ten rounds or more. It is not he
firearm itself.

Q.

If you purchase a firearm that was designed to
accept fewer than, say, ten rounds, is there any
way of knowing whether or not in the future that
firearm could be modified or whether a manufacturer will produce a magazine of a larger capacity?

A.

No. There’s no way to know.

MR. ROBINSON: If I could have one moment, Your
Honor?
THE COURT: All right.
MR. ROBINSON: I have no further questions, Your
Honor.

App.30a
THE COURT: All right. Thank you. Cross, Mr.
Thomas?
[*****]
CROSS EXAMINATION BY MR. THOMAS
[Counsel for the State of Massachusetts]
Q.

Thank you, Your Honor. If I could approach the
witness?
Now, sir, showing you Exhibit 1, the Large-Capacity Weapons Roster, 02/2015, this is not an allinclusive list. Is that fair to say?

A.

That’s fair to say.

Q.

On the top of it there’s essentially a preamble
where there’s wo paragraphs saying—it kind
of . . . .
[...]
. . . objection is sustained.

MR. THOMAS: All right. Thank you. Your Honor.
If I could have a moment, Your Honor.
THE COURT: You may.
MR. THOMAS: We have no further questions of this
witness, Your Honor.
THE COURT: All right. Thank you. Any redirect?
MR. ROBINSON: Yes, Your Honor, very briefly.
[*****]
REDIRECT EXAMINATION BY MR. ROBINSON
Q.

You were asked questions about semi-automatic
weapons and, say, the Beretta 96.

App.31a
Could any—virtually any semi-automatic weapon
classify as a large-capacity weapon under the
statutory scheme?
A.

Yes.

Q.

Does the statutory law specifically say all semiautomatic weapons are large-capacity weapons?

A.

It does not.

Q.

And does the Large-Capacity Weapons Roster and
the Approved Weapons Roster, do they both contain semi-automatic weapons?

A.

Yes.

Q.

Now, let’s take law enforcement for a moment. A
law enforcement officer who arrested somebody
in possession of a Cx4 Storm, would they have
discretion to charge that as a large-capacity
weapon, if it was improperly stored, or not a largecapacity weapon, in your opinion?

A.

I believe they would.

Q.

And why is that?

A.

Because the definition is so vague that it is subject
to interpretation. And they could view the firearm
itself in either way, either as large-capacity or not.

Q.

And how would they go about viewing it one way
or another?

A.

Well—

MR. THOMAS: Objection, Your Honor.
THE COURT: This is beyond the scope. Sustained.

App.32a
Q.

You were shown a document which indicated a kit
that could modify a Cx4 Storm. And you indicated
that you were familiar with that. Is that correct?

A.

Yes.

Q.

And in your affidavit and in your testimony, you
indicated that it is your understanding that that
firearm was designed specifically to accept eight
rounds or less. Is that correct?

A.

Yes.

Q.

Is there some reason why it was designed that
way?

A.

I don’t know the specific reason. I just know the
manufacturer’s materials indicate that it’s
designed for eight-round capacity.

MR. ROBINSON: I have nothing further, Your Honor.
THE COURT: Thank you. Any recross?
MR. THOMAS: No, Your Honor.
THE COURT: Thank you very much, sir.
THE WITNESS: Thank you, Your Honor.
THE COURT: You may step down.
COURT OFFICER: This is just on the plea for your
signature of conditions.
THE COURT: All right. Mr. Robinson, anything else?
MR. ROBINSON: No, Your Honor.
THE COURT: All right. Mr. Thomas?
MR. THOMAS: We will not call a witness, Your Honor.
THE COURT: All right. Do you wish to argue, Mr.
Robinson?

App.33a
MR. ROBINSON: Briefly Your Honor. You know, I
would rely essentially upon the memorandum.
But essentially what I would suggest, Your Honor,
is that the—if you look at the statutory scheme
in Massachusetts that . . . .
[...]

App.34a
INDICTMENT ASSAULT BY MEANS OF A
DANGEROUS WEAPON GENERAL LAWS
CHAPTER 265, SECTION 15B(b)
(DECEMBER 16, 2014)
COMMONWEALTH OF MASSACHUSETTS
________________________
COMMONWEALTH
v.
EDWARD FLEURY
________________________
Hampshire, SS. Superior Court
Indictment No. 14-193-1
SUPERIOR COURT INDICTMENT NO. 14-193-1
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
August 2, 2014 at Belchertown in the County of
Hampshire, did assault Peter Teraspulsky by means
of a dangerous weapon, namely a handgun.

App.35a
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-2
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Luger CZ Model 85 with serial number 06327,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the

App.36a
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-3
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
an Action Arms Uzi Model B, serial number SA59296,
without securing the weapon in a locked container or

App.37a
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-4
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely

App.38a
a Beretta Model CX4 Storm, serial number CK04156,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-5
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY

App.39a
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Beretta Model 92FS, serial number BER427474,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-6
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and

App.40a
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September IL 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Smith and Wesson Model 669, serial number TBK
1755, without securing the weapon in a locked container
or equipped with a tamper-resistant mechanical lock
or other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-7

App.41a
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Smith and Wesson Model 5904, serial number TCF
0935, without securing the weapon in a locked container
or equipped with a tamper-resistant mechanical lock
or other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney

RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

App.42a

SUPERIOR COURT INDICTMENT NO. 14-193-8
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Beretta Model 92F, serial number. D05313Z, without
securing the weapon in a locked container or equipped
with a tamper-resistant mechanical lock or other safety
device, properly engaged so as to render such weapon
inoperable by such person other than the owner or
other lawfully authorized user, in violation of General
Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.

App.43a
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-9
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Beretta Model 96, serial number BER150356, without
securing the weapon in a locked container or equipped
with a tamper-resistant mechanical lock or other safety
device, properly engaged so as to render such weapon
inoperable by such person other than the owner or
other lawfully authorized user, in violation of General
Laws Chapter 140, Section 131L (a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to

App.44a
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-10
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Kel-Tec Model PLR-16, serial number P3W93,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney

App.45a
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-11
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a FN Herstal Five Seven IOM, serial number 386161469, without securing the weapon in a locked container or equipped with a tamper-resistant mechanical lock
or other safety device, properly engaged so as to render
such weapon inoperable by such person other than
the owner or other lawfully authorized user, in violation of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas

App.46a
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-12
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Sig Sauer Model P229, serial number A124054,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).

App.47a
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-13
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon,
namely a Colt Model SP-1, serial number SP190686,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the

App.48a
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-14
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Springfield Model M1-A, serial number 152713,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or

App.49a
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-15
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon,

App.50a
namely a Winchester Model M1 Carbine, serial number
6575237, without securing the weapon in a locked
container or equipped with a tamper-resistant mechanical lock or other safety device, properly engaged so
as to render such weapon inoperable by such person
other than the owner or other lawfully authorized
user, in violation of General Laws Chapter 140, Section
131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-16
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY

App.51a
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon,
namely a Spikes Tactical Model SL15, serial number
SAR01935, without securing the weapon in a locked
container or equipped with a tamper-resistant mechanical lock or other safety device, properly engaged so as
to render such weapon inoperable by such person
other than the owner or other lawfully authorized
user, in violation of General Laws Chapter 140, Section
131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk
SUPERIOR COURT INDICTMENT NO. 14-193-17
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and

App.52a
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon,
namely a Spikes Tactical Model SL15, serial number
SAR01934, without securing the weapon in a locked
container or equipped with a tamper-resistant mechanical lock or other safety device, properly engaged so as
to render such weapon inoperable by such person
other than the owner or other lawfully authorized
user, in violation of General Laws Chapter 140, Section
131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

App.53a

SUPERIOR COURT INDICTMENT NO. 14-193-18
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of
Hampshire, did store or keep a large capacity weapon,
namely a Marlin Model 9 Camp Carbine, serial number
013262, without securing the weapon in a locked
container or equipped with a tamper-resistant mechanical lock or other safety device, properly engaged
so as to render such weapon inoperable by such person
other than the owner or other lawfully authorized
user, in violation of General Laws Chapter 140, Section
131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to

App.54a
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-19
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Norinco SKS semi-automatic rifle serial number
9303009, without securing the weapon in a locked
container or equipped with a tamper-resistant mechanical lock or other safety device, properly engaged so
as to render such weapon inoperable by such person
other than the owner or other lawfully authorized
user, in violation of General Laws Chapter 140, Section
131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney

App.55a
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-20
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon,
namely a Bushmaster Model XM15-E25, serial number
L297616 without securing the weapon in a locked
container or equipped with a tamper-resistant mechanical lock or other safety device, properly engaged so
as to render such weapon inoperable by such person
other than the owner or other lawfully authorized
user, in violation of General Laws Chapter 140, Section
131L(a),

App.56a
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-21
At the Superior Court, begun and, holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon, namely
a Colt Model AR15A2, serial number GC019798,
without securing the weapon in a locked container or
equipped with a tamper-resistant mechanical lock or
other safety device, properly engaged so as to render
such weapon inoperable by such person other than the

App.57a
owner or other lawfully authorized user, in violation
of General Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-22
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hampshire, did store or keep a large capacity weapon,
namely a Spikes Tactical Model SL15, serial number
SAR01936, without securing the weapon in a locked

App.58a
container or equipped with a tamper-resistant mechanical lock or other safety device, properly engaged so as
to render such weapon inoperable by such person
other than the owner or other lawfully authorized
user, in violation of General Laws Chapter 140, Section
131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

SUPERIOR COURT INDICTMENT NO. 14-193-23
At the Superior Court, begun and holden at
Northampton, within and for the County of Hampshire,
for the transaction of criminal business, on the First
Monday of October in the year two thousand and
fourteen, the GRAND JURORS for the Commonwealth
of Massachusetts on their oath, present that:
EDWARD FLEURY
of Pelham in the County of Hampshire on or about,
September 11, 2014 at Pelham in the County of Hamp-

App.59a
shire, did store or keep a firearm rifle or shotgun, not
an otherwise large capacity weapon, without securing
the weapon in a locked container or equipped with a
tamper-resistant mechanical lock or other safety
device, properly engaged so as to render such weapon
inoperable by such person other than the owner or
other lawfully authorized user, in violation of General
Laws Chapter 140, Section 131L(a).
A True Bill
/s/ Signature Not Legible
Foreperson
/s/ Matthew Thomas
Assistant District Attorney
RETURN
HAMPSHIRE, ss. On this 16th day of December,
2014, this indictment was returned and presented to
said Superior Court by the Grand Jury, and filed by
order of the Court.
Attest: Harry Jekanowski, Jr.
Clerk

